Case: 5:17-cr-00055-DCR Doc #: 527 Filed: 08/10/20 Page: 1 of 7 - Page ID#: 3335
AO 2458 (Rev. 09/19) Judgment in a Criminal Case
Sheet I

UNITED STATES DISTRICT COURT

I0

Eastern District of Kentucky - Central Division at Lexington
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
Sergio Bucio

JUDGMENT IN A CRIMINAL CASE
Case Number:

5: I 7-CR-055-SS-DCR-09

USM Number:

25703-11 l

Jarrod James Beck
Defendant's Attorney

THE DEFENDANT:
121 pleaded guilty to count(s)

•

_5_&~6~[D_E_#6_8~J_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

pleaded nolo contendere to count(s)
which was accepted by the court.

D was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
I 8: l 956(h)

Nature of Offense
Conspiracy to Commit Money Laundering

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of I984.

Offense Ended
4/13/2017

Count
5&6

_ _7,__ of this judgment. The sentence is imposed pursuant to

D The defendant has been found not guilty on count(s)

D Count(s)

---------------

D is

D

are dismissed on the motion of the United States.

H is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

Honorable Danny C. Reeves,
Name and Title of Judge

August 10, 2020
Date

Case: 5:17-cr-00055-DCR Doc #: 527 Filed: 08/10/20 Page: 2 of 7 - Page ID#: 3336
AO 2458 (Rev. 09/19) Judgment in a Criminal Case
Sheet 2 - Imprisonment

Judgment- Page _ _,2'-- of

DEFENDANT:
CASE NUMBER:

7

Sergio Bucio

5:l 7-CR-055-SS-DCR-09

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:

One Hundred Nine (109) Months on each of Counts Five and Six of the second superseding indictment,
to run concurrently, for a total term of ONE HUNDRED NINE (109) MONTHS
181

The court makes the following recommendations to the Bureau of Prisons:
That the defendaot be designated to the facility closest to his home, in Salinas, California, for which he may qualify.
That the defendant participate in job skills and vocational training programs.
That the defendant participate in an English-as-a-Second Language(ESL) Program.
That the defendant participate in a program working towards the completion of a GED.

C8J

The defendant is remanded to the custody of the United States Marshal.

D

The defendant shall surrender to the United States Marshal for this district:

•

at

D

as notified by the United States Marshal.

D

- - - - - - - - - D a.m.

•

p.m.

on _ _ _ _ _ _ _ _ _ __

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:

D

before 2 p.m. on

•

as notified by the United States Marshal.

D

as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
with a certified copy of this judgment.

UNITED STATES MARSHAL

By-----~=~---==-~-----DEPUTY UNITED ST ATES MARSHAL

Case: 5:17-cr-00055-DCR Doc #: 527 Filed: 08/10/20 Page: 3 of 7 - Page ID#: 3337
AO 2458 (Rev. 09/19) Judgment in a Criminal Case

Sheet 3 ~ Supervised Release
Judgment-Page

DEFENDANT:
CASE NUMBER:

~~3~_

of

7

Sergio Bucio

5: 17-CR-055-SS-DCR-09

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:

Three (3) Years as to Count Five, and Three (3) Years as to Count Six, to run concurrently,
for a total term of supervision of THREE (3) YEARS

MANDATORY CONDITIONS
I.

2.
3.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one dmg test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
0 The above drug testing condition is suspended, based on the court's dctennination that you
pose a low risk of future substance abuse. (Check, ifapplicable.)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (Check. if applicable.)
(gj You must cooperate in the co11ection of DNA as directed by lhe probation officer. (Check, if applicable.)
You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted ofa qualifying offense. (Check, ifapplicable.)
D You must participate in an approved program for domestic violence. (Check, ifapplicable.)

4.

•

5.
6.

•

7.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Case: 5:17-cr-00055-DCR Doc #: 527 Filed: 08/10/20 Page: 4 of 7 - Page ID#: 3338
AO 2458 (Rev. 09/19)

Judgment in a Criminal Case
Sheet 3C - Supervised Release
Judgment-Page

DEFENDANT:
CASE NUMBER:

4

of

7

Sergio Bucio

5: I 7-CR-055-SS-DCR-09

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the fo1lowing standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep infonned, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
I 0.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your release
from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time frame.
After initially rep011ing to the probation office, you will receive instructions from the court or the probation officer about how and when
you must report to the probation officer, and you must rep011 to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you arc authorized to reside without first getting pem1ission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
airnngements (such as the people you live with), you must notify the probation officer at least IO days before the change. If notifying the
probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must pcnnit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type ofemployment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses you
from doing so. If you plan to change where you work or anything about your work (such as your position or your job responsibilities),
you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is
not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming aware of a change or
expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the pennission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or lasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without first
getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may require
you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the person and
confinn that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this judgment
containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised Release
Conditions, available at: www.uscowts.gov.
Defendant's Signature

Date _ _ _ _ _ _ _ _ _ _ _ __

Case: 5:17-cr-00055-DCR Doc #: 527 Filed: 08/10/20 Page: 5 of 7 - Page ID#: 3339
A02458 (Rev. 09/l9) Judgment in a Criminal Case
Sheet 3D - Supervised Release
Judgment-Page _ _5_ _ of

DEFENDANT:
CASE NUMBER:

Sergio Bucio
5: l 7-CR-055-SS-DCR-09

7

---

SPECIAL CONDITIONS OF SUPERVISION
If you are depmied, you must not re-enter the United States without the permission of the U.S. Bureau of
Immigration & Customs Enforcement and/or the Attorney General. However, if you would re-enter the United
States during the effective term of supervision, you must repo1i to the closest U.S. Probation Office for service of
supervision.

Case: 5:17-cr-00055-DCR Doc #: 527 Filed: 08/10/20 Page: 6 of 7 - Page ID#: 3340
AO 245B (Rev. 09/19) Judgment in a Criminal Case
Sheet 5 ~ Criminal Monetary Penalties
Judgment-Page

DEFENDANT:
CASE NUMBER:

6

of

7

Sergio Bucio
5: l 7-CR-055-SS-DCR-09

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

Assessment
TOTALS

Restitution

$ NIA

$ 200.00 ($1001Ct.)

AVAA Assessment*

$ 3,000.00

D The detennination of restitution is deferred until
after such determination.

D

Fine

$ NIA

JVTA Assessment**

$ NIA

- - - -. An Amended Judgment in a c,.;minal Case (AO 24SC) will be entered

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

If the defendant makes a partial payment, each payee shall receive an approximately propmtioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

TOTALS

D
D

Total Loss***

Restitution Ordered

$ _ _ _ _ _ _ _ __

Priority or Percentage

$ _ _ _ _ _ _ _ _ __

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the

fifteenth day afler the date of the judgment, pursuant to 18 U.S.C. § 3612(!). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
IZI

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

•

IZI the interest requirement is waived for the
D

the interest requirement for the

•

fine

fine
D

D

restitution.

restitution is modified as follows:

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.

** Justice for Victims of Trafficking Act of2015, Pub. L. No. 114-22.

*** Findings for the total amount of losses are required under Chapters I 09A, 110,
after September 13, 1994, but before April 23, 1996.

11 OA, and 113A of Title 18 for offenses committed on or

Case: 5:17-cr-00055-DCR Doc #: 527 Filed: 08/10/20 Page: 7 of 7 - Page ID#: 3341
AO 2458 (Rev. 09/19) Judgment in a Criminal Case
Sheet 6 -Schedule of Payments
Judgment- Page ----'-7__ of

DEFENDANT:
CASE NUMBER:

7

Sergio Bucio
5: l 7-CR-055-SS-DCR-09

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:

A

181

Lump sum payment of$

•
181

3,200.00

due immediately, balance due

not later than

in accordance with

•

C,

'or

•

D,

•

E, or

181 F below; or

B

•

Payment to begin immediately (may be combined with

C

D

Payment in equal _ _ _ _ _ _ (e.g., weekly, monthly, quarterly) installments of $ _ _ _ _ _ _ over a period of
(e.g., months or years), to commence _ _ _ _ _ {e.g., 30 or 60 days) after the date of this judgment; or

D

D

Payment in equal _ _ _ _ _ _ (e.g., weekly, monthly, quarterly) installments of $ _ _ _ _ _ _ over a period of
(e.g., months or years}, to commence _ _ _ _ _ (e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

D

Payment during the tenn of supervised release will commence within
_ _ _ _ _ (e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

181

Special instructions regarding the payment of criminal monetary penalties:

•

C,

•

D, or

•

F below); or

Criminal monetary penalties are payable to:
Clerk, U.S. District Court, Eastern District of Kentucky
IO I Barr Street, Room 206, Lexington, KY 40507

INCLUDE CASE NUMBER WITH ALL CORRESPONDENCE
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetmy penalties is due during the
period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons' Inmate Financial
Responsibility Program, are made to the clerk of the court.

The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

•

Joint and Several
Case Number
Defendant and Co-Defendant Names
Oncluding defimdant number)

Total Amount

•

The defendant shall pay the cost of prosecution.

•

The defendant shall pay the following comt cost(s):

181

Joint and Several Amount

Corresponding Payee, if appropriate

The defendant shall forfeit the defendant's interest in the following property to the United States:
As listed in the Forfeiture Allegation of the Second Superseding Indictment, specifically, $575,400 in U.S. Currency; $297,880 in U.S.
Currency; $302,150 in U.S. Currency; and a Toyota Camry, black in color, Kentucky license plate number 867VYJ, VIN number
4TIBK3EKIAU100385.

Payments shall be applied in the following order: (I) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA assessment,
(5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs, including cost of
prosecution and court costs.

